                         UNITED STA TES DEPARTMENT OF EDUCATION 

                                          OFFICE OF INSPECTOR GENERAL 

                                    1999 BRYAN STREET, HARWOOD CENTER, serrE 2630 

                                               DALLAS, TEXAS 75201-6817 

                                         PHONE: (214) 880-3031 FAX: (214) 880-2492 





                                                     JAN       8 2003
ME:\10RANDUlVI

TO 	               Theresa S. Shaw
                   Chief Operating Officer
                   Federal Student Aid


FROl\1 	           Sherri L. Demmel
                   Regional Inspector General
                   for Audit

SUBJECT: 	 Final Audit Report
                   ARIZONA AUTOMOTIVE INSTITUTE'S ADlvlINISTRATION OF THE
                   WILLIAM D. FORD FEDERAL DIRECT LOAN PROGRAM
                   Control :Kumber ED-OIG/A06-B0025


Attached is our subject report presenting the findings resulting from our audit of Arizona
Automotive Institute.

In accordance with the Department's Audit Resolution Directive, you have been designated as
the action official responsible for resolution of the findings in this report.

If you have any questions or wish to discuss the contents of this report, please contact me at
214-880-3031. Please refer to the audit control number in all correspondence relating to this
report.


Attachment




       Our mission is to promote the efficiency, effectiveness. and imegrity of the Department's programs and operations
                       U~ITED        STATES DEPARTMENT OF EnUCATION 

                                        OFFICE OF INSPECTOR            GE~RAL         

                                  1999 BRYAN STREET, HARWOOD CE~TER, SUITE 2630 

                                              DALLAS, TEXAS 75201-6817 

                                       PHONE: (214) 880-303l FAX: (214) 880-2492 





ML Bill Gresham, Director
Arizona Automotive Institute
6829 North 46 th Avenue
Glendale, Arizona 85301

Dear Mr. Gresham:

This }'inal Audit Report (Control Kumber ED-OIG/A06-B0025) presents the results of our
limited-scope audit of the Arizona Automotive Institute (AAI). The objectives of our audit were
to determine if AAI reconciled and accounted, with the Department, for William D. Ford Federal
Direct Loan Program (Direct Loan) funds monthly, and closed Direct Loan accounts in
accordance with program requirements. Our review focused on Direct Loan Program Years
1997 -1998 through 1999-2000.

A draft of this report was provided to AAl. In its response, AAI generally agreed with our
fjndings and recommendations. We have summarized AAI's comments after the
Recommendations. A copy of the complete response is enclosed with this report.


                                                 BACKGROUND
AAI is a proprietary school located in Glendale, Arizona. The Accrediting Commission of
Career Schools and Colleges of Technology accredits the school. AAI received initial approval
to participaie in the Title IV, Student Financial Assistance programs on May 9, 1972, and began
participating in the Direct Loan Program on ~arch 1, 1995. American Trades Institute
purchased AAI on April 30, 1999. AAI received about $7.2 million in Direct Loan funds for the
three program years ending June 30, 2000.

AAI operated under the standard origination option during most of our audit period. Being on
the standard origination option allowed AAI to originate Direct Loan records and disburse funds.
Under the standard origination option, AAI did not handle promissory notes or draw down funds.
The Direct Loan Origination Center (LaC) performed those functions for the school. The
Department placed AAI on the reimbursement payment method from October 29,1997, until
August 15,2000.




    Our mission is to promote the efficiency, effectiveness. alld illtegrity of the Depanmelll 's programs and operations
Mr. Bill Gresham, Director                                                      Page 2 of 5



                                     AUDIT RESULTS 


AAI did not reconcile and account, with the Department, for Direct Loan funds monthly, and did
not close Direct Loan accounts in accordance with program requirements. As of January 31,
2001, AAI had annual ending unaccounted for cash balances totaling approximately $1,107,669
for the last three Direct Loan program years. By ~ovember 8, 2002, the total unaccounted for
cash balance had been reduced to $253,006. The potential interest cost to the Federal
Government associated with the total unaccounted for cash balance was approximately $62,587
as of N" ovember 8, 2002.

In order for a loan to be reconciled, it must be booked. A loan is booked when the LOC receives
and accepts a loan origination record; the borrower signs a promissory note and the LOC accepts
the promissory note; and a first disbursement record is transmitted to and accepted by the LOC.

Schools are also required under 34 C.ER. § 685.300(b) to comply with a11 requirements
established by the Department relating to the Direct Loan Program. As stated in 34 C.F.R.
§ 685.300(b)(6), a school must "provide assurances that the school will comply with
requirements established by the Secretary relating to student loan information with respect to
loans made under the Direct Loan Program ...." According to 34 C.F.R. § 685.300(b)(7), a
school must also provide that it "will accept responsibility and financial liability stemming from
its failure to perform its functions ...."

As provided in 34 C.F.R. § 685.102, schools must reconcile Direct Loan funds "on a monthly
basis." According to 34 C.F.R. § 685.301(d), schools are required to submit loan origination
records, promissory notes, and disbursement records to the LOC within 30 days of the initial and
subsequent disbursements. The Department requires schools to close out each program year with
an ending cash balance of zero by submitting all records and promissory notes by a deadline
established by the Department. The deadlines to close Direct Loan accounts were August 2,
1999 for Program Year 1997-1998; July 31, 2000 for Program Year 1998-1999; and August 10,
2001 for Program Year 1999-2000.

The school's corporate office provlded documents that indicated some effort was made to
reconcile open Direct Loan accounts, but those efforts were not made on a monthly basis.
During the period March 11, 1997, through October 18, 2000, the LOC recorded 260 line items
of contact between the LOC and AAI in an effort to help the school reconcile its account. An
LOC Reconciliation Accountant and a Client Account Manager offered to conduct a site visit to
the school; however, the National Financial Aid Director declined assistance until February
2002. AAI did not submit any records within 30 days of loan disbursement and did not provide
adequate oversight to ensure funds were reconciled. As a result of not submitting its records
timely and not successfully reconciling on a monthly basis, AAI did not end any of the Direct
Loan program years we reviewed with a cash balance of zero as required.

The unaccounted for cash balances occurred because AAI relied on its corporate office to
perform the monthly reconciliation, AAI and the corporate office did not have written policies
and procedures for reconciling and closing Direct Loan accounts, and the corporate office
National Financial Aid Director did not completely understand the reconciliation process. For
Mr. Bill Gresham, Director 	                                                    Page 3 of 5


instance, the Controller told us that neither she nor the National Financial Aid Director was
aware of the monthly Direct Loan reconciliation requirement.

Because AAI did not reconcile monthly for Program Years 1997-1998 through 1999-2000 and
return the unaccounted for cash balances at the time the funds were unaccounted for, we
calculated the potential interest cost to the Federal government and taxpayers to be
approximately $62,587 as of November 8,2002 1 • On January 31, 2001, the school had a
negative balance for Program Year 1997-1998 and had positive balances for the other two years.
On November 8,2002, the school had a positive balance for only Program Year 1999-2000.
That balance was $253,006. The unaccounted for cash balances and the potential cost to the
government are detailed in the following table.

                                 Ending                Ending             Potential Interest
                            Unaccounted for        Unaccounted for             Cost to
                              Cash Balance          Cash Balance            Government
                                  As of                 As of                   As of
       Program Year         January 31, 2001       November 8, 2002       November 8, 2002
         1997-1998            (5 336,299)            ($ 129,140)            $        0.00
         1998-1999             5 273,097             ($ 127,793)            $        0.00
         1999-2000             5 834,572              $ 253,006             $ 62,586.75
          *Totals              $1,107,669             $ 253,006             $ 62,586.75

* Totals were calculated only for the positive numbers. The negative numbers indicate (1) loan
amounts that are booked for which the institution has not received the funds and (2) loans that
need to be adjusted.


                                 RECOMMENDATIONS

We recommend that the Chief Operating Officer for Federal Student Aid:

1. 	 Require AAI to immediately either account for the $253,006 in unaccounted for funds or
     return the funds to the Department of Education plus any interest.

2. 	 Require AAI to develop management controls and procedures to ensure that it reconciles
     with the Department on a monthly basis.




1 We calculated that cost by applying the Current Value of Funds Rate, which was five percent
for the period July 1, 1997, through December 31, 2000, six percent for the period January 1,
2001, through December 31,2001, and five percent for the period January 1,2002, through
November 8, 2002, to the ending cash balances.
Mr. Bill Gresham, Director 	                                                  Page 4 of 5



                 AAI'S COMMENTS TO THE DRAFT REPORT 

                          AND DIG'S RESPONSE 


AAI stated that, "AAI has made every possible attempt to reconcile the accounts for Award
Years 1997/98 through 1999/2000. These efforts continue." As of November 8,2002, the total
unaccounted for amount was $253,006 for Award Year 1999-2000. AAI stated that it stopped
participating in the Direct Loan Program after Award Year 2000101. "However, in light of the
progress made over the last few months, if AAI is given the chance to continue to work with the
LOC towards resolving this problem, all of the award years in question will be reconciled." AAI
also questioned whether the regulations require monthly reconciliation

After evaluating AAI's comments, we modified the unaccounted for funds amount in
Recommendation 1 from $466,515 to $253,006. We encourage AAI to continue working with
the Loan Origination Center to reconcile and account for all Direct Loan funds. Under 34 c.P.R.
§ 685.300(b), Direct Loan schools must comply with requirements established by the Secretary~
monthly reconciliation is one of those requirements.


                 OBJECTIVES, SCOPE, AND METHODOLOGY

The objectives of our audit were to determine if AAI reconciled and accounted, with the
Department, for Direct Loan funds monthly, and closed Direct Loan accounts in accordance with
program requirements. To accomplish our objectives, we:

    • 	 Interviewed Department, LOC, AAI, and corporate office personnel to determine the
        reconciliation process.

    • 	 We compared the Department's ending cash balances against AAI's ending cash
        balances, for Direct Loan Program Years 1997-1998 through 1999-2000, to determine
        the magnitude of Direct Loan funds that were unreconciled at the end of the program
        years.

    • 	 We reviewed the LOC's records from March 11, 1997, through October 18, 2000, to
        determine whether technical assistance was provided to AAI to assist the school in the
        reconciliation process.

We relied on computerized cash balance data applicable to AAI from the Department's Loan
Origination System. We visited the LaC during the week of March 19,2001. We conducted
our fieldwork at AAI from June 26, 2001, through June 29, 2001, and at the corporate office on
July 3, 2001. We held an exit conference on July 17,2001. We also performed additional work
at the LOC from April 30, 2002, through May 7, 2002. The audit was conducted in accordance
with generally accepted government auditing standards appropriate to the audit scope described
above.
Mr. Bill Gresham, Director                                                      Page 5 of 5


                 STATEMENT ON MANAGEMENT CONTROLS 


As part of our audit, we gained an understanding of AAI's and the corporate office's system of
management controls and practices over the reconciliation and close out procedures for the
Direct Loan Program. We gained this understanding to assist us in determining whether
management controls contributed to AAI's inability to reconcile and account for Direct Loan
funds monthly, and close Direct Loan accounts in accordance with program requirements.

Because of inherent limitations, a study and evaluation made for the limited purpose described
above would not necessarily disclose all material weaknesses in the management controls.
However, our assessment disclosed a management control weakness that adversely affected
AAI's ability to reconcile its Direct Loan records. That weakness is discussed in the Audit
Results section of this report.

                             ADMINISTRATIVE MATTERS

If you have any additional comments or information that you believe may have a bearing on the
resolution of this audit, you should send them directly to the following U.S. Department of
Education official, who will consider them before taking final Departmental action on the audit:

       Theresa S. Shaw, Chief Operating Officer 

       Federal Student Aid 

       C.S. Department of Education 

       Union Center Plaza 

       830 15t Street, NE 

       Room 112G1 

       Washington, DC 20202 


Office of Management and Budget Circular A-50 directs Federal agencies to expedite the
resolution of audits by initiating timely action on the findings and recommendations contained
therein. Therefore, we request receipt of your comments within 30 days.

In accordance with the Freedom of Information Act (5 U.S.c. § 552), reports issued by the
Office of Inspector General are available, if requested, to members of the press and general
public to the extent information contained therein is not subject to exemptions in the Act.

If you have any questions or if you wish to discuss the contents of this report, please contact me
at 214-880-3031. Please refer to the control number in all correspondence related to this report.


                                              Sincerely,
                                              ,\)lAo .,~ Oe;~
                                              ~rr~Demmel
                                              Regional Inspector General
                                               for Audit
Enclosure
                      WHITAKER. CHALK, SWINDLE                    & SAWYER, L.L.P.
                                         ATTORNEYS AT LAw

                                      3500 CITY CENTER TOWER II 

                                        301 COMMERCE STREET 

                                    FORT WORTH, TEXAS 76102·4186 


                                             (817) 878-0500
                                          METRO (817) 429-6268
                                          WWW.WHITAKERCHALK.COM
JOHN ALLEN CHALK                                                                        FAX (817) 878·0501
DIRECT DIAL (817) 878"()575                                                      JCHALK@WHITAKERCHALK.COM
                                                                                   Refer to File ;-.Jo. 14062.012

                                          November 26, 2002

Federal Express
Sheri L. Demmel
Regional Inspector General for Audit
U. S. Department of Education
Office of Inspector General
1999 Bryan St., Suite 2630
Dallas, TX 75201-6817

         Re:       Draft Audit Report Control Number ED-OIG/A06-B0025; Our File 1\0. 14062.012

Dear Ms. Demmel:

        Having reviewed the Draft Audit Report (Control Number ED-OIG/ A06-B0025) sent to Arizona
Automotive Institute ("AAI") dated October 28,2002, we appreciate this opportunity to clarify some of
the information contained in the report for Award Years, 1997/98 through 1999/2000.

         AAI History in Title IV Program

        AAJ initially became eligible for Title IV funds beginning May 9, 1972, and then began
participating in the Direct Loan Program ("DLP") March 1, 1995. AAI was on the reimbursement
payment method under the standard origination option from October 29, 1997 to August 15, 2000.
Hmvever, it is important to note that during this period, specifically on April 30, 1999, AAT's assets and
name were purchased by ATI Enterprises of Florida, Inc., a Texas Corporation ("ATI"). At the time of
the purchase in 1999, ATI was told that all the loan records for AAI were reconciled, it was only after
the purchase that AAI became aware of umeconciled DLP funds.

         Since this purchase, ATI has worked and continues to work diligently on an almost daily basis
with individuals at the Direct Loan Origination Center ("LOC"), specifically DELETED                  and
   DELETED          to reconcile the accounts for Award Years 1997/98 through 199912000. Cnfortunately,
it has been very difficult to get enough information or help from LOC to be able to reconcile these years.
For example, DELETED from LOC and DELETEDa Client Account Manager with Region IX,
visited AAI's Corporate Office on April 17 and 18,2002, to run the Compare Program for Award Years
1997/98 and 1998/99 so that AAI could further determine what adj ustments, if any, needed to be made
to ATI's DLP ending cash balances. Despite their efforts, neither one was able to run the program while
at AT!. AII finally had to call DELETED            ' in Washington to run the program for ATI. Only then
was ATI able to determine some necessary adjustments. But even after this program was run, A II has
uncovered additional adjustments.
.l\ovember 26,2002
Page 2

        Currently, AAI is not in the DLP, having withdrawn from the DLP after Award Year 2000/01
in order to have the time to reconcile prior Award Years' DLP fundings. Additionally, AAI did not want
to continue in the DLP until they could resolve problems with the LOC and reconcile all past Award
Years.

       Problems with the LOC

         Many of the problems with reconciling Award Years stem from problems at the LOC. After a
Final Program Review Detennination ("FPRD"), dated February 22,2002, which resulted from a review
ofthe records at LOC, it was incorrectly detennined that AAI had an excess cash balance ofS 109,702.00
for the award year 1998/99. ATI appealed this FPRD in Docket No. 02-40-SP, PRC~: 200221119489.
While investigating this claim and prosecuting its FPRD appeal, AAI detern1ined that LOC records
reflected an incorrectamountofDLP funding on January 27, 19990fS575,818.00to AAI for award year
1998/99 and an incorrect amount ofDLP funding on January 27,1999 of$345,482.00 for award year
1997/98. See Exhibits R-1 through R-5. LOC subsequently recognized this mistake and notified AAI
that the Education Department ("E.D.") would authorize a "drawdown" to AAI for $118,890.00 for
1998/99 and S92,585.00 for 1997/98. See Exhibit R-6. AAI confirmed this amount bye-mail to LOC
on August 28, 2002. See Exhibit R-7. On October 30, 2002, the Department of Education signed a
Settlement Agreement \vith AAI in light of these LOC mistakes and the subsequent reconciliations,
thereby ending AT!' s appeal proceeding. See R-8 and R -9. Since that agreement was reached, AAI and
LOC have continued to reconcile both Award Years resulting in a negative balance of$129,140.00 for
1997/98 and negative balance ofS127,793.85 for 1998/99, as ofKovember 12,2002, according to LOC
records. See Exhibit R-lO.

        After the settlement was reached with E.D., AAI continued to take steps to reconcile Award Year
1999/2000 with the LOC in order to reach a cash balance ofzero. This is a time-consuming process, but
within the last few months AAI in conjunction with LOC has been able to reduce the cash balance for
Award Year 1999/2000 from $446,000.00 to $253,006.10, as ofNovember 12,2002, according to LOC
records. See Exhibit R-10. If allowed to continue to work through the 199912000 Award Year, AAI in
conjunction with LOC can achieve a zero ending cash balance for this award year as well.


       Reconciliation

         In the past, although AAI has tried, it has been impossible for AAI to reconcile accounts on a
monthly basis. The Blue Book, the only publication to describe monthly reconciliation, states that the
school's Direct Loan records should be compared to the Direct Loan School Account Statement
("DLSAS")generated by the LOC. The DLSAS calculates a school's cash balance by adding and
subtracting the following cash records: drawdowns, returns ofexcess cash, disbursements to borrowers,
and adjustments to disbursements. The problem inAA!,s monthly reconciliation efforts stems from the
fact that the LOC simply does not have current numbers especially if any refunds or excess cash has been
returned within 120 days of a disbursement because any such refunds have to be sent directly to the
Payment Center and are not accounted for in the DLSAS.
Kovember 26, 2002
Page 3

        Additionally, neither 34 C.F.R. 685,34 C.F.R 668, nor the Student Financial Aid Handbook
require schools to make a monthly accounting. While, 34 C.F.R. § 685.102 mentions a monthly
reconciliation under the standard origination option, this section is merely definitional and precatory,
not mandatory. No other section mentions a monthly reconciliation. The requirements of34 C.F.R. §
685.300(b) do not include a monthly reconciliation. Although the Blue Book mentions DLP monthly
reconcihations, this publication provides guidance not prescriptions to Title IV eligible schools.
Therefore, while a monthly reconciliation is a good idea, and AAI is trying to achieve this, it is not a
regulatory requirement.

        Similarly, the 34 C.F.R. 685,34 C.F.R. 668 and the Student Financial Aid Handbook do not
require a yearly reconciliation; nor do they establish a reconciliation deadline to close out the years.
Therefore, except for the required audits under 34 C.F.R. § 668.23(a)( 4), AAI is unaware ofregu Jatory
deadlines in which to reconcile the Award Years in question.

              ~1anagement      Controls and Procedures

       AAI is not currently in the DLP; therefore, they do not currently have an implemented
management controls and procedures manual. However, AAI does have a management controls and
procedures manual that will be implemented when they decide to rejoin the DLP.

              Conclusion

         AAI has made every possible attempt to reconcile the accounts for Award Years 1997/98 through
1999/2000. These efforts continue. Given the difficulties in getting adjustments booked by the LOC,
it has taken much longer than AAI hoped or anticipated. However, in light of the progress made over
the last few months, ifAAI is given the chance to continue to work with the LOC towards resolving this
problem, all of the Award Years in question will be reconciled.

        If you should have any questions or comments or need to reach me with regard to this matter,
please do not hesitate to contact me at 817-878-0575.




JAC:kgd
Enclosures

c: 	          Peggy Rogers (w/enclosures)
              Joe Mehlmann (wi enclosures)


H '.STOit'kgd"AAIED!tr.wp<:!
                           REPORT DISTRIBUTION LIST
                            Control Number OIG/A06-B0025


Auditee                                             Action Official

Mr. Bill Gresham, Director                          Theresa S. Shaw
Arizona Automotive Institute                        Chief Operating Officer
6829 North 46 th A venue                            Federal Student Aid
Glendale, AZ 85301


                               Other ED Officials (electronic copy)


Audit Liaison Officer                               Assistant Secretary
Federal Student Aid                                 Intergovernmental and Interagency Affairs

Correspondence Control                              Deputy Assistant Secretary
Office of the General Counsel                       Legislation and Congressional Affairs

Assistant General Counsel                           Chief Financial Officer
Office of the General Counsel                       Office of the Chief Financial Officer

Deputy Secretary                                    Post Audit Group Supervisor
Office of the Deputy Secretary                      Office of Chief Financial Officer

Chief of Staff                                      Director
Office of the Secretary                             Office of Public Affairs

Under Secretary                                     Area Case Director
Office of the Under Secretary                       San Francisco Case Management Team
                                                    Federal Student Aid


                                    Others (electronic copy)

       Accrediting Commission of Career Schools and Colleges of Technology
